quinn emanuel

trial lawyers | washington, dc

1300 I Street NW, Suite 900, Washington, District of Columbia 20005-3314 | TEL (202) 538-8000 FAX (202) 538-8100

WRITER'S DIRECT DIAL NO.
(202) 538-8109
WRITER'S EMAIL ADDRESS
marissaducca@quinnemanuel.com

October 30, 2019
VIA HAND DELIVERY
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

ChargePoint, Inc. v. SemaConnect, Inc., No. 19-521

Dear Mr. Harris:
I write as counsel of record for Respondent SemaConnect, Inc.
The petition for a writ of certiorari in this case was docketed October 22, 2019. A response to the
petition is thus currently due November 21, 2016. Pursuant to Rules 15.3 and 30.4, Respondent
respectfully requests a 30-day extension of time within which to file a response to the petition, to
and including the next business day (the thirtieth day falling on a Saturday), which is Monday,
December 23, 2019. A 30-day extension will ensure that I have sufficient time to analyze and
respond to the arguments raised in the petition.
Thank you for your consideration of this request.
Very truly yours,

Marissa R. Ducca
cc:

Carter G. Phillips (by first-class mail and e-mail)

quinn emanuel urquhart & sullivan, llp
LOS ANGELES | NEW YORK | SAN FRANCISCO | SILICON VALLEY | CHICAGO | WASHINGTON, DC | HOUSTON | SEATTLE | BOSTON | SALT LAKE CITY
LONDON | TOKYO | MANNHEIM | HAMBURG | PARIS | MUNICH | SYDNEY | HONG KONG | BRUSSELS | ZURICH | SHANGHAI | PERTH | STUTTGART

